Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice ProgramsOffice of Juvenile Justice and Delinquency Prevention National K-12 Substance Abuse Prevention and Violence Avoidance Project Grant Awarded to D.A.R.E. AmericaGrant Number 2002-DR-FX-0002Inglewood, California


Report No. GR-90-04-005


March 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the National K-12 Substance Abuse Prevention and Violence Avoidance Project grant, including a supplement, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Prevention (OJJDP) to D.A.R.E. America, headquartered in Inglewood, California.  The purpose of this grant is to administer training, provide technical assistance, facilitate program implementation and expansion, and conduct monitoring throughout the country.  As of September 30, 2003, D.A.R.E. America was awarded a total of $5,207,125 to provide technical assistance and training throughout the country.  We tested D.A.R.E. America's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Of the $3,090,000 expended as of November 15, 2003, we tested transactions totaling $1,882,407 and found that one FY 2003 transaction lacked adequate support and was unallowable.  As a result, we question $17,230 in grant funds received.1 
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.